Audit Report




OIG-13-032

Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2012 and 2011 Financial Statements

February 12, 2013




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               February 12, 2013


            MEMORANDUM FOR JENNIFER SHASKY CALVERY, DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Years 2012 and 2011 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network’s (FinCEN) financial statements for fiscal years 2012 and 2011. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of FinCEN as of September 30, 2012 and 2011 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated February 8, 2013 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
                                                                      1015 18th Street, NW
Certified Public Accountants                                               Suite 200
& Consultants                                                        Washington, DC 20036
                                                                       Tel: 202-857-1777
                                                                       Fax: 202-857-1778
                                                                       www.gkacpa.com




      Financial Crimes Enforcement Network
                AUDIT REPORT
                  Fiscal Year 2012

         DEPARTMENT OF THE TREASURY
              WASHINGTON, D.C.




                               Member of the American Institute of Certified Public Accountants
                                             TABLE OF CONTENTS


Management’s Discussion and Analysis ...................................................................................1

Financial Statements:

         Balance Sheets ...............................................................................................................7
         Statements of Net Cost...................................................................................................8
         Statements of Changes in Net Position ..........................................................................9
         Statements of Budgetary Resources.............................................................................10
         Statements of Custodial Activity .................................................................................12
         Notes to Financial Statements ......................................................................................13

Required Supplementary Information......................................................................................30

Independent Auditor’s Reports:

    Independent Auditor’s Report on Financial Statements ....................................................34
    Independent Auditor’s Report on Internal Control over Financial Reporting ...................36
    Independent Auditor’s Report on Compliance with Laws and Regulations......................38
                          United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                Management Discussion and Analysis
                                       September 30, 2012

FinCEN directly supports the Treasury Department’s strategic goal to “protect our national security
through targeted financial actions.” The Director of FinCEN reports to the Under Secretary for the
Office of Terrorism and Financial Intelligence (TFI). FinCEN carries out its mission by exercising
regulatory functions under the Bank Secrecy Act (BSA); receiving and maintaining financial
transaction data; analyzing and disseminating that data for law enforcement purposes; and building
global cooperation with counterpart organizations in other countries and with international bodies.
FinCEN serves as the financial intelligence unit (FIU) of the United States, responsible for receiving,
analyzing, and disseminating disclosures of financial information in order to combat money
laundering and terrorism financing.

FinCEN’s efforts are linked to the following bureau strategic goals:
   • Financial systems are more transparent and resistant to financial crime;
   • Analysis and information sharing contribute to the detection and deterrence of financial
      crime; and
   • Financial reporting and data are useful, comprehensive, and secure.

FY 2012 Accomplishments

FinCEN’s accomplishments towards its FY 2012 priorities include:
    Enhanced proactive compliance efforts through collaboration with the Internal Revenue
      Service (IRS) and State regulatory agencies to increase concurrent compliance examinations,
      identification of State regulatory agencies on which FinCEN may be able to rely for certain
      non-bank financial institution examinations (focusing on money services businesses), and
      development of initial business rules that will leverage modernized analytical tools to
      identify areas of compliance risk;
    Transition towards a paperless reporting environment in support of Treasury’s paperless
      initiative, through mandatory electronic filing of most FinCEN reports, release of new
      dynamic electronic versions of the Suspicious Activity Report and Currency Transaction
      Report, and consolidation of remaining processing functions from IRS to FinCEN operations
      and oversight;
    The networking business requirements in the IT Modernization program to automate some of
      the notifications for the networking and deconfliction program. The enhancement of the
      networking and deconfliction processes should expedite networking notifications to agencies,
      as well as increase the number of agencies networked. The rules for networking will be
      implemented, tested and modified to insure optimal performance;
    Designed and developed business rules for new proactive alerts to identify when new
      FinCEN data filings meet established rules based criteria. This capability will be part of IT
      Modernization and should result in increased awareness of relevant filings, and expedited
      detection of illicit activity documented through filings;


                                                    1
   Disseminated proactive intelligence reports based on FinCEN reporting to a number of
    foreign FIUs on possible instances of public corruption. Several jurisdictions indicated that
    the reports provided information that would be investigated further. FinCEN is expanding its
    program of proactive disclosures to FIUs in FY 2012 to include terrorism and terrorist
    financing; and
   Completed conversion of 11 years of FinCEN data and the transition of collection,
    processing, and storage from the legacy IRS system to the new FinCEN system of record.
    FinCEN released four new filing reports: Suspicious Activity Report, Currency Transaction
    Report, Registration of Money Services Business, and Designation of Exempted Persons—to
    industry for submission through FinCEN’s Electronic Filing system in support of Treasury’s
    paperless initiative.

Highlights of Performance Measures

Performance Measures                                                    FY 2011 FY 2012 FY 2012
                                                                         Actual Target Actual
Percentage of financial regulators finding information exchanged        92%     88%        93%
with FinCEN under MOUs valuable to improve BSA consistency
and compliance
Percentage of regulatory helpline customers understanding BSA           92%     90%        89%
guidance
Percentage of domestic law enforcement finding FinCEN’s analytic        86%     80%        83%
reports contribute to the detection and deterrence of financial crime
Percentage of foreign FIUs finding FinCEN’s analytic reports            92%     90%        82%
provide valuable information towards the detection and deterrence
of financial crime
Percentage of customers finding the FinCEN data provides valuable       89%     86%        90%
information towards the detection and deterrence of financial crime

In the regulatory area, FinCEN tracks the percentage of financial regulators finding information
exchanged with FinCEN under MOUs valuable to improve BSA consistency and compliance.
For this measure, FinCEN surveys its compliance MOU holders to determine the impact of the
information exchange to improve the consistency and compliance of the financial system with
FinCEN’s regulations implementing the BSA. In FY 2012, FinCEN surpassed its target of 88
percent with 93 percent. FinCEN was able to accomplish this performance by strengthening
relationships with state regulatory agencies in a number of areas, including support for
concurrent examinations and initiating information sharing agreements with state insurance
commissioners. In FY 2014, FinCEN will increase the target to 90 percent rating the
information exchange as valuable, and will intend to maintain a level of 90 percent in future
years. To meet future targets, FinCEN must continue to effectively support regulatory partners.
FinCEN has proposed legislative amendments to allow for reliance on examinations conducted
by a state supervisory agency for categories of institutions not subject to a federal regulator. If
implemented, this statutory amendment could expand FinCEN’s relationship with state
regulatory agencies.




                                                2
FinCEN also measures the percentage of regulatory helpline customers understanding BSA
guidance. This measure is linked to FinCEN’s goal to provide financial institutions with
understandable guidance and success is critical to institutions establishing anti-money laundering
programs that comply with FinCEN’s regulations. Understandable guidance will also contribute
to protecting financial institutions and their customers from financial crime. In FY 2012,
FinCEN’s goal is to maintain a 90 percent satisfaction level, and FinCEN narrowly missed this
target with 89 percent due to resource demands associated with a significant increase in call
volume. Average monthly call volume has increased fivefold since the start of the fiscal year
and additional volume will be added at the beginning of FY 2013 as further IRS support ends. In
FY 2014, the target is to attain 90 percent. Significant additions of staff beginning in early
calendar year 2012, enhanced training programs for less experienced staff, and a reorganization
to expand oversight and supervision of this functional area are part of FinCEN’s efforts to
achieve future targeted performance levels. Factors potentially affecting FinCEN’s ability to
achieve this goal include the planned centralization within FinCEN of all outreach and call center
activities as well as operational functions relating to data quality currently performed by IRS;
additional outreach support for new industries as a result of FinCEN’s ongoing regulatory and
informational initiatives; increased call volume concerning the mandatory electronic filing of
most FinCEN reports; and expected increases in inquiries associated with FinCEN initiatives
involving IT modernization and increased communication to the MSB industry.

In the analytical area, FinCEN supports domestic law enforcement and international FIU partners
by providing analyses of BSA information. The percentage of domestic law enforcement finding
FinCEN's analytic reports contribute to the detection and deterrence of financial crime is a
survey measure. While results were down slightly in FY 2012, FinCEN still met its target of 80
percent with 83 percent of domestic law enforcement finding the reports valuable. In reviewing
the survey results, FinCEN noted that the decrease is attributable to scores related to its proactive
analytical products.

The second measure tracks the value of the analytic reports to foreign FIU customers. In FY
2010, FinCEN set a baseline for this measure of 90 percent. In FY 2012, 82 percent of foreign
FIU customers completing the survey found the analytic reports valuable. FinCEN did not meet
the target of 90 percent due to a decrease in the number of FIU customers indicating that
FinCEN provided new information relevant to their investigations. Because the survey indicated
a strong preference for new lead information, FinCEN will continue to seek ways to meet this
demand.

To determine the success of the goal to provide useful data, FinCEN measures the percentage of
customers finding the FinCEN data provides valuable information towards the detection and
deterrence of financial crime. This measure tracks the value of the FinCEN information to law
enforcement and regulatory agency users with direct access to the FinCEN data. This is a
composite measure compiled from survey results. The survey looks at the value of FinCEN data,
such as whether the data provided unknown information, supplemented or expanded known
information, verified information, helped identify new leads, opened a new investigation or
examination, supported an existing investigation or examination, and provided information for
an investigative or examination report. In FY 2012, FinCEN surpassed its target of 86 percent
with 90 percent of customers finding the FinCEN data provides valuable information. FinCEN

                                                 3
was able to surpass this target through outreach and training that emphasizes the value of the data
and provides concrete examples of utilization. The FY 2014 target is 90 percent. The
modernized technical environment aims to further enhance the performance of this measure by
maximizing data integrity and providing more robust and flexible query tools. The new BSA
technical foundation will provide additional data quality checks and validations and more
feedback to the filing community to continue FinCEN’s goal of improving the quality of
information.

Future Outlook for FY 2013/FY 2014

In order to achieve its priorities and continue to advance its strategic goals, FinCEN will improve
its ability to enhance the integrity of financial systems by facilitating the detection and deterrence
of financial crime. To meet these priorities, FinCEN will:

•   Continue to enhance proactive compliance and enforcement through stronger coordination
    between federal and state regulatory agencies on examinations, increased interaction with
    law enforcement to target potential noncompliant institutions;
•   Continue to advance regulatory initiatives designed to further protect the U.S. financial
    system from abuse while balancing their impact on the financial industry. This would include
    carefully considering public comment on and weighing changes to proposed rules as
    appropriate;
•   Continue law enforcement and private sector collaboration in the Southwest Border and in
    other high threat areas for the purpose of developing and sharing real-time or actionable
    intelligence on related money laundering patterns, trends, and methods;
•   Support law enforcement efforts to combat illicit activities through the fusion of investigative
    data with the FinCEN data to provide complex analytical products that advance
    investigations and prosecutions;
•   Implement the new IT capacity to create alerts on relevant BSA and other data from
    regulated financial institutions for internal and external stakeholders;
•   Continue joint analytical projects with foreign FIUs, particularly in the areas of proactive and
    strategic analysis. Just as FinCEN receives financial intelligence from BSA reports, each
    FIU also receives similar reporting in their own country on financial activity. By working
    together, FinCEN and foreign FIUs can find connections in data streams relating to
    suspicious activity that otherwise would not be found; and
•   Leverage the new IT capabilities to enhance longstanding efforts to help coordinate among
    various federal, state and local agencies that might be investigating related subjects or similar
    types of financial crime.

FY 2012 Financial Statement Highlights

Highlights of FinCEN’s FY 2012 financial performance appear below. FinCEN is financed
annually through appropriations authorized by Congress. The FY 2012 enacted budget is $111
million.

In fiscal year 2012, an accounting policy was implemented that requires FinCEN to capture the
revenue accrual with the Treasury Forfeiture Fund in a “Transfer-in” account appearing in the

                                                  4
Statement of Changes in Net Position. Previously this activity was recorded in a revenue
account that appeared on the Statement of Net Cost. For comparative purposes the policy was
applied to FY 2011 and FY 2012.

Balance Sheets:
Assets: The total assets as of September 30, 2012 and 2011 were $114.2 and $92.0 million,
respectively, of which approximately 55.1 percent consists of fund balance with Treasury in
2012 and 57.0 percent in 2011. Total assets increased by $22.2 million. This increase primarily
resulted from a $15.6 million increase in plant and equipment as a result of IT Modernization for
internal use software capitalization. It also included a $10.5 million increase in the fund balance
with Treasury, and a $3.8 million decrease in accounts receivable. Liabilities: The total
liabilities as of September 30, 2012 and 2011 were $19.1 and $15.9 million, respectively. There
was an approximately $3.2 million increase in the total liabilities in FY 2012 over FY 2011. The
increase was a result of the Information Technology Project referred to as BSA IT
Modernization.

Statement of Net Costs:
The net cost of operations as of September 30, 2012 and 2011 were $117.0 and $122.5 million,
respectively. Total net cost of operations decreased by $5.5 million from 2011. All of FinCEN’s
costs are reported under the Department of the Treasury’s Strategic goal of “protecting our
national security through targeted financial actions.” FinCEN’s net cost aligned to its own
Strategic Goals as disclosed on the face of the statement of net cost. A significant portion of
FinCEN’s net costs ($59.1 million or 50.5% percent) relates to FinCEN’s Strategic Goal 3:
Financial reporting and data are useful, comprehensive and secure.

Internal Controls, Systems, and Audits

Financial management systems are in substantial compliance with the requirements imposed by
the Federal Financial Management Improvement Act (FFMIA), and applicable sections of the
Federal Manager’s Financial Integrity Act (FMFIA). FinCEN relies on the Bureau of Public
Debt (BPD) Administrative Resource Center (ARC) for administrative and accounting services
and systems.

Improper Payments Elimination and Recovery Act (IPERA) Reporting

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires agencies to
review their programs and activities to identify those that are susceptible to significant erroneous
payments. “Significant” is defined as annual erroneous payments in the program exceeding both
205 percent of program outlays and $10 million of all program or activity payments made during
the fiscal year reported or $100,000,000 (at any percent of program outlays).

As a bureau of the Department of the Treasury, FinCEN follows the methodology and guidance
prescribed by the Department. Each year, a comprehensive inventory of the funding sources for
all programs and activities is developed. Treasury Fund Symbols with disbursements or total
funding equal to or greater than $1 million have been identified as Risk Assessment required at
the payment type level (e.g., payroll, contracts, vendors, travel, etc.). For those payment types

                                                 5
resulting in high risk assessments that comprise at least 2.5 percent and $10 million of a total
fund group annual payments, (1) statistical sampling must be performed to determine the actual
improper payment rate, and (2) a corrective action plan to reduce erroneous payments must be
developed and submitted to the Office of Management and Budget (OMB) for approval. All of
FinCEN’s programs and activities resulted in low risk susceptibility for improper payments.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of FinCEN. While the statements have been prepared from the books and records
of FinCEN in accordance with GAAP for federal entities and the formats prescribed by OMB,
the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                6
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                                    Balance Sheets


                                                                  As of September 30
                                                           2012                        2011

ASSETS (Note 2)
Intragovernmental:
  Fund balance with Treasury (Note 3)                      $62,968,443                 $52,454,502
  Accounts receivable (Note 4)                               2,646,346                   6,468,599
  Advances and prepayments                                     470,152                     471,291
Total intragovernmental                                     66,084,941                  59,394,392

  Accounts receivable, net (Note 4)                              6,156                      35,062
  Property and equipment, net (Note 5)                      48,177,273                  32,580,135

Total assets                                             $114,268,370                  $92,009,589

LIABILITIES (Note 7)
Intragovernmental:
  Accounts payable                                          10,265,670                   7,205,984
  Other (Note 8)                                             1,181,172                   1,539,434
Total intragovernmental                                     11,446,842                   8,745,418

  Accounts payable                                           2,608,419                   2,064,094
  Other (Note 8)                                             5,065,882                   5,107,097
Total liabilities                                           19,121,143                  15,916,609

Commitments and contingencies (Notes 9 and 10)

NET POSITION
  Unexpended appropriations                                50,757,921                   47,650,941
  Cumulative results of operations                         44,389,306                   28,442,039
Total net position                                         95,147,227                   76,092,980
Total liabilities and net position                       $114,268,370                  $92,009,589

         The accompanying notes are an integral part of these financial statements



                                             7
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                  Statements of Net Cost


                                                         For the Years Ended September 30
                                                                                  Restated
PROGRAM COSTS (Note 11)                                   2012                     2011
Financial systems are more transparent and
resistant to financial crime
   Gross costs                                            $30,470,730                    $32,297,997
   Less: earned revenue                                             -                       (70,242)
Net program costs                                           30,470,730                    32,227,755

Analysis and information sharing contribute to
the detection and deterrence of financial crime

  Gross costs                                               28,079,602                    30,531,119
  Less: earned revenue                                       (644,565)                     (827,731)
Net program costs                                           27,435,037                    29,703,388

 Financial reporting and data are useful,
comprehensive, and secure
   Gross costs                                              59,074,867                    60,570,065
   Less: earned revenue                                              -                        (4,035)
Net program costs                                           59,074,867                    60,566,030


Net cost of operations                                   $116,980,634                   $122,497,173




            The accompanying notes are an integral part of these financial statements




                                                  8
                            United States Department of the Treasury
                             Financial Crimes Enforcement Network
                              Statements of Changes in Net Position

                                                                 For the Years Ended September 30
                                                                                          Restated
                                                                   2012                    2011
Cumulative Results of Operations:
  Beginning balances                                              $28,442,039                $6,426,025

Budgetary financing sources:
  Appropriations used                                             106,888,370               105,774,845

Other financing sources (non-exchange):
  Transfers in without reimbursement                                 5,118,220               15,728,878
  Imputed financing from costs absorbed by
   others (Note 6)                                                 20,921,311                23,009,464
Total financing sources                                           132,927,901               144,513,187

Net cost of operations (Note 11)                                 (116,980,634)             (122,497,173)
Net change                                                          15,947,267                22,016,014

Cumulative results of operations                                  $44,389,306               $28,442,039

Unexpended appropriations:
  Beginning balance                                                 47,650,941               43,181,049

Budgetary financing sources:
  Appropriations received                                          110,788,000               111,010,000
  Other adjustments                                                  (792,650)                 (765,263)
  Appropriations used                                            (106,888,370)             (105,774,845)
Total budgetary financing sources                                    3,106,980                 4,469,892

Total unexpended appropriations                                     50,757,921               47,650,941

Net position                                                      $95,147,227               $76,092,980


               The accompanying notes are an integral part of these financial statements




                                                    9
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources

                                                            For the Years Ended September 30
                                                                 2012               2011

BUDGETARY RESOURCES
Unobligated balance brought forward, October                   $33,987,602           $28,037,420
Recoveries of prior year unpaid obligations (Note 12)            1,270,194             1,420,440
Other changes in unobligated balance (Note 12)                   (792,650)             (543,243)
Unobligated balance from prior year budget authority, net       34,465,146           $28,914,617
Appropriations (discretionary and mandatory)                   110,788,000           110,787,980
Spending Authority from offsetting collections                   7,768,828            12,755,195
Total Budgetary Resources                                     $153,021,974          $152,457,792


STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12)                                $118,360,658          $118,470,190
Un-obligated Balance, end of year
 Apportioned                                                    32,198,212            31,556,426
 Unapportioned                                                   2,463,104             2,431,176
Unobligated balance brought forward, end of year
                                                                34,661,316            33,987,602
Total Budgetary Resources                                     $153,021,974          $152,457,792

                                                                        (Continued)




        The accompanying notes are an integral part of these financial statements




                                                 10
                           United States Department of the Treasury
                            Financial Crimes Enforcement Network
                                 Statements of Budgetary Resources


                                                                               For the Years Ended September 30
                                                                                  2012                 2011


CHANGE IN OBLIGATED BALANCE
Unpaid obligations, brought forward, October 1 (gross)                         $27,099,782           $29,542,142
Uncollected customer payments from Federal sources, brought forward,
 October 1                                                                       (8,632,882)        (10,361,919)
Obligated balance start of year (net)                                           $18,466,900          $19,180,223
Obligations incurred                                                            118,360,658          118,470,190
Outlays (gross)                                                               (109,100,758)        (119,492,110)
Change in uncollected customer payments from Federal Sources                      1,850,521            1,729,036
Recoveries of prior year unpaid obligations                                     (1,270,194)          (1,420,440)
 Unpaid Obligations, end of year (gross)                                        35,089,489           27,099,782
 Uncollected customer payments from Federal sources, end of year                (6,782,362)          (8,632,882)
Obligated balance, end of year (net)                                           $28,307,127           $18,466,900


BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)                         $118,556,828          $123,543,175
Actual offsetting collections (discretionary and mandatory)                     (9,619,349)          (14,484,231)
Change in uncollected customer payments from Federal Sources
 (discretionary and mandatory)                                                    1,850,521            1,729,036
Budget Authority, net (discretionary and mandatory)                           $110,788,000          $110,787,980

Outlay, gross (discretionary and mandatory)                                   $109,100,758          $119,492,110
Actual offsetting collections (discretionary and mandatory)                     (9,619,349)          (14,484,231)
Outlays, net (discretionary and mandatory)                                     $99,481,409          $105,007,879
Distributed offsetting receipts                                                           -                 (774)
Agency Outlays, net (discretionary and mandatory)                              $99,481,409          $105,007,105




                 The accompanying notes are an integral part of these financial statements




                                                              11
                              United States Department of the Treasury
                               Financial Crimes Enforcement Network
                                  Statements of Custodial Activity


                                                                  For the Years Ended September 30
                                                                   2012                     2011
Revenue activity (Note 13):
Sources of cash collections:
Civil monetary penalties and other revenue                             $55,180                $286,774
Total cash collections                                                  55,180                 286,774

 Accrual Adjustment                                                    (20,000)                 25,000

Total custodial revenue                                                 35,180                 311,774

Disposition of collections:
Transferred to others:
Department of the Treasury                                             (55,180)               (286,774)

 Accrual Adjustment
                                                                         20,000                (25,000)
Total Disposition of Custodial Revenue & Collections                   (35,180)               (311,774)



Net custodial activity                                        $               -         $             -




        The accompanying notes are an integral part of these financial statements



                                               12
                     United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2012 and 2011

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the
Department of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau
status October 26, 2001 in Public Law 107-56. The mission of FinCEN is to enhance the
integrity of the financial systems by facilitating the detection and deterrence of financial crime.
This is accomplished primarily through the administration of the Bank Secrecy Act (BSA);
supporting law enforcement, intelligence, and regulatory agencies through sharing and analysis
of financial intelligence; enhancing international anti-money laundering and counterterrorist
financing efforts and cooperation; and networking people, entities, ideas, and information.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity
with accounting principles generally accepted in the United States of America. Accounting
principles generally accepted for Federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the
United States Government.

These financial statements are provided to assist the Department of the Treasury meet the
requirements of the Government Management Reform Act of 1994. The financial statements
consist of the balance sheets and the statements of net costs, changes in net position, budgetary
resources and custodial activity. The financial statements and the related notes are presented on
a comparative basis.

FinCEN’s financial statements with respect to the balance sheets, the statements of net cost, and
the statements of changes in net position are reported using the accrual basis of accounting.
Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. FinCEN’s statement of
budgetary resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. It
generally differs from the accrual basis of accounting in that obligations are recognized when
new orders are placed, contracts awarded, and services received, that will require payments
during the same or future periods. FinCEN’s non-entity revenues are reported on the statement
of custodial activity using a modified accrual basis of accounting. With this method, revenue
from cash collections are reported separately from receivable accruals and cash disbursements
are reported separately from payable accruals. Intragovernmental assets and liabilities result
from activity with other Federal agencies. All other assets and liabilities result from activity with
parties outside the Federal government, such as domestic and foreign persons, organizations, or

                                                 13
governments. Intragovernmental earned revenues are collections or accruals of revenue from
other Federal agencies, and intragovernmental costs are payments or accruals to other Federal
agencies.

While these financial statements have been prepared from the books and records of FinCEN,
these financial statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, where liabilities not covered by budgetary resources cannot be liquidated
without the enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity. The statements of net cost, changes in net
position and budgetary resources for fiscal year 2011 have been reclassified to make them
comparable to the fiscal year 2012 presentation.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash
receipts and disbursements. Fund balance with Treasury is composed of appropriated and trust
funds that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the
public.

Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN.
These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and
the levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s
regulatory responsibilities. Public accounts receivable are presented net of an allowance for
doubtful accounts, which is determined by considering the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Advances and Prepayments
Intragovernmental advances and prepayments consist of amounts paid to the Department of the
Treasury Working Capital Fund prior to FinCEN’s receipt of goods and services.

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight-line method over
the estimated useful lives of the assets. FinCEN’s capitalization threshold for general property
and equipment is established at minimum of $25,000, and an estimated useful life of two years or
more. FinCEN’s capitalization threshold for bulk purchases is established at a minimum of
$100,000 per lot and $5,000 per line item. The cost of each individual item must be at least




                                               14
$5,000, but below the minimum capitalization threshold of $25,000. Any item in the lot that
meets the capitalization threshold of $25,000 is capitalized separately and not considered to be a
part of the bulk purchase lot.

Internal-use software includes commercial off-the-shelf (COTS), internally and contractor
developed software and license fees with a cost of $125,000 or more and an estimated useful life
of 2 years or more. Capitalized costs for internally developed software include the full cost
(direct and indirect) incurred during the software development phase. Costs associated with the
preliminary design phase, and the post-implementation/operational phases are expensed as
incurred. For COTS software, the capitalized cost includes the amount paid to the vendor for the
software. Capitalized costs for contractor developed software include the amount paid to a
contractor to design, program, install and implement the software.

Enhancements to internal use software are capitalized if the costs are $125,000 or more, have an
estimated useful life of 2 years or more, and add significant additional capabilities. Costs
incurred solely to repair a design flaw or to perform minor upgrades that may extend the useful
life without adding capabilities are expensed.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation,
or approval for disposal of property and equipment, the value of the related asset and
corresponding accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of
the lease, or the useful life of the improvement. Amortization of capitalized software begins on
the date the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and
is valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as
a result of past transactions or events. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay
amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken.
The balances in the accrued annual leave account reflects current pay rates and leave balances,
and is reported within other liabilities in the accompanying Balance Sheet. Sick leave and other
types of non-vested leave are charged to operating costs as the leave is taken.




                                                15
Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual
liability is presented as a component of intragovernmental other liabilities, and the actuarial
liability is presented within other liabilities in the accompanying Balance Sheet.
FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have incurred work-related occupational diseases and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits to employees are administered by the U.S. Department of
Labor (DOL) which initially pays valid claims and subsequently seeks reimbursement from the
Federal agencies employing the claimants. Reimbursement to DOL occurs approximately two
years subsequent to the actual disbursement to the claimant. Budgetary resources for this
intragovernmental liability are made available to FinCEN as part of its annual appropriation from
Congress in the year in which the reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for
future workers’ compensation benefits includes the expected liability for death, disability,
medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Based on information provided by the DOL, Treasury allocates
the overall Treasury liability to Treasury components based on prior claims payment experience.
The accrued liability is not covered by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration
(GSA) for the Vienna, VA facility contain a rent abatement period. FinCEN is recognizing rent
expense on a straight-line basis over the lease term. Accordingly, an unamortized rent abatement
liability is included in other intragovernmental liabilities in the accompanying Balance Sheet.
This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service
Retirement System (CSRS). As of September 30, 2012 and 2011, FinCEN contributed 7 percent
of base pay for regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2012 and 2011, FinCEN
contributed 11.9 and 11.7, respectively, percent of base pay for the FERS basic benefit. A
primary feature of FERS is that it offers a savings plan to which FinCEN automatically
contributes 1 percent of base pay and matches employee contributions up to an additional 4
percent of base pay. FinCEN also contributes the employer’s Social Security matching share for
FERS participants.




                                               16
FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to FinCEN employees. Reporting such amounts is the responsibility of the Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not
contribute funds for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by
OPM. The additional expense representing the difference between the estimated cost and the
employer and employee contributions for these programs is included as an expense and as a
related imputed financing source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or
assets are purchased. Exchange revenue from reimbursable agreements is recognized when
earned (i.e., goods have been delivered or services rendered). Reimbursable work between
Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes
authorizing reimbursement. Prices for goods and services sold to other Federal agencies are
generally limited to the recovery of actual costs. FinCEN recognizes as an imputed financing
source the amount of pension and post-retirement benefit expense for current employees paid on
behalf of FinCEN by the Office of Personnel Management (OPM), as well as amounts paid from
the Department of Treasury Judgment Fund in settlement of claims, legal settlements, or court
assessments. When costs that are identifiable to FinCEN and directly attributable to FinCEN’s
operations are paid for by other agencies, FinCEN recognizes these amounts as imputed costs
and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods
and services received by FinCEN from a providing bureau that is part of Treasury. FinCEN
identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to
the entity, directness of the relationship to entity operations, identifiably) that are not fully
reimbursed and recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-
entity accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported
on FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of



                                                  17
laws and regulations under FinCEN’s regulatory responsibility.

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that
have been established as a legally enforceable claim and collection is probable. Proceeds from
the civil monetary penalty assessments are ultimately deposited in the Treasury General Fund
based on established laws and regulations. These funds are not available to fund FinCEN’s
operating activities and accordingly, an offsetting liability due to the Treasury General Fund is
recorded for amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An
allowance for doubtful accounts is established based on an assessment of the debtor’s current
ability to pay, the debtor’s payment record and willingness to pay, and an analysis of aged
receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities, the disclosure of contingencies at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period.
Significant estimates relate to an allowance for loss on a receivable for fines and penalties,
accrued payroll and benefits, and accrued unfunded leave. Actual results may differ from those
estimates.

NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2012 and 2011 consisted of the following:
                                                       2012                              2011
Civil penalties assessed                                    $1,600,945                   $1,571,000
Less allowance for doubtful collection                     (1,595,945)                  (1,546,000)

          Total non-entity assets                               5,000                       25,000
Total entity assets                                       114,263,370                   91,984,589
          Total assets                                   $114,268,370                  $92,009,589

Non-entity accounts receivable as of September 30, 2012 and 2011 primarily represents civil
monetary penalties due from non-Federal sources for violations of laws or regulations under
FinCEN’s regulatory responsibility.

The total non-entity assets, if any, are offset on the balance sheet by the custodial liability Due to
the Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.




                                                 18
NOTE 3. FUND BALANCE WITH TREASURY


Fund Balances:
Fund balance with Treasury as of September 30, 2012 and 2011 consisted of the following
components:
                                                 2012                         2011

     Trust funds                                       $65,164                     $65,164
     Appropriated funds                             62,903,279                  52,389,338

     Total                                      $62,968,443                    $52,454,502

Trust funds consist of a violent crime reduction expenditure account that is designated by law as
a trust fund. Receipts in this account are used for law enforcement related information
technology projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations
of FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2012 and 2011 consisted of the
following:
                                                  2012                     2011
     Unobligated balance:
       Available                                 $32,198,212              $31,556,426
       Unavailable                                  2,463,104               2,431,176
     Obligated balance not yet disbursed          28,307,127               18,466,900

    Total                                            $62,968,443               $52,454,502

The unobligated balance unavailable represents amounts appropriated in prior fiscal years that
are not available to fund new obligations, but may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a bona fide
need that arose in the fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not
yet been made.




                                               19
NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2012 and 2011, were as follows:
                                                   2012                            2011
 Intragovernmental:
    Accounts receivable                             $2,646,346                    $6,468,599
 Public:
    Accounts receivable                                  1,156                        10,062
    Civil penalties assessed                         1,600,945                     1,571,000
    Less allowance for doubtful collection         (1,595,945)                   (1,546,000)
    Public accounts receivable, net                      6,156                        35,062
 Total accounts receivable, net                     $2,652,502                    $6,503,661

Intragovernmental accounts receivable arise generally from the provision of goods and services
to other Federal agencies.

Accounts receivable from public sources consist of administrative receivables from employees or
suppliers and civil monetary penalties which have been billed or accrued and remain uncollected
as of year-end. The collection of civil monetary penalties is a custodial activity performed by
FinCEN. An allowance for doubtful accounts of $1,595,945 and $1,546,000 was recognized as
of September 30, 2012 and 2011, respectively, to offset civil monetary penalties. A claim for
$1,500,000 has been referred to Department of Justice for possible termination of collection
activity.




                                              20
        NOTE 5. PROPERTY AND EQUIPMENT, NET

      Property and equipment as of September 30, 2012 and 2011 consisted of the following:
                                                                               2012
                                             Useful                        Accumulated             Net
                          Depreciation        Life        Acquisition     Depreciation/           Book
                             Method        (In years)        Cost          Amortization           Value
Furniture, fixtures and
     equipment                 S/L            5-7         $18,043,910       ($7,862,193)       $10,181,717
Construction in progress       N/A            N/A             235,518                   -          235,518
Internal-use software          S/L              5          52,793,936       (18,290,756)        34,503,180
Internal-use software in
     development               N/A            N/A           2,969,902                   -        2,969,902
Leasehold improvements         S/L            3-5           1,503,135        (1,216,179)           286,956
Total                                                     $75,546,401     ($27,369,128)        $48,177,273

                                                                                2011
                                                Useful                       Accumulated           Net
                             Depreciation        Life       Acquisition      Depreciation/        Book
                               Method         (In years)       Cost          Amortization         Value
Furniture, fixtures and
     equipment                   S/L            5-7         $14,006,221       ($5,173,008)       $8,833,213
Construction in progress         N/A            N/A             117,173                  -          117,173
Internal-use software            S/L             5           25,512,273       (13,508,591)       12,003,682
Internal-use software in
     development                 N/A            N/A           11,228,467                 -       11,228,467
Leasehold improvements           S/L            3-5            1,415,002       (1,017,402)          397,600

Total                                                       $52,279,136      ($19,699,001)     $32,580,135


        Construction-in-progress represents equipment that has been received but has not yet been
        constructed and placed into operation.

        Internal-use software in development represents actual (direct) costs and other indirect costs
        incurred for various software development projects not yet placed in service. Depreciation and
        amortization expense recognized during the year ended September 30, 2012 and 2011 was
        $8,025,448 and $4,376,211, respectively.




                                                      21
NOTE 6. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs borne by the Office of Personnel Management for
employee related costs as well as with the Internal Revenue Service. Imputed financing costs
borne by the Internal Revenue Service relate to the collection and processing of Bank Secrecy
Act Data. A summary of the imputed financing costs by agency for the years ended September
30, 2012 and 2011 is as follows:
                                                         2012                     2011


 Office of Personnel Management                          $2,335,790               $2,681,522
 Internal Revenue Service                                18,585,521               20,327,942
 Total Imputed Financing Sources                        $20,921,311              $23,009,464


NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources
is dependent on future congressional appropriations. The September 30, 2012 and 2011
liabilities not covered by budgetary resources consisted of the following:
                                                                   2012               2011
 Intragovernmental:
      Accrued workers’ compensation                              $15,455               $15,045
      Unamortized rent abatement                                 650,545             1,022,285
               Total intragovernmental                           666,000             1,037,330
 Public:
      Accrued annual leave                                     2,985,779             2,966,749
      Actuarial liability for workers’ compensation               47,227                53,963
               Total public                                    3,033,006             3,020,712
 Total liabilities not covered by budgetary resources          3,699,006             4,058,042
 Total liabilities covered by budgetary resources or
      non-entity assets                                       15,422,137           11,858,567
               Total liabilities                             $19,121,143          $15,916,609




                                              22
NOTE 8. OTHER LIABILITIES
Other liabilities as of September 30, 2012 and 2011 consisted of the following:
                                                                               2012
                                                       Non-Current            Current             Total
Intragovernmental:
   Due to Treasury General Fund                           $           -      $    5,000       $     5,000
   Accrued employee benefits                                          -         475,861           475,861
   Prepayments from Federal agencies                                             34,311            34,311
   Accrued workers’ compensation                                  926            14,529            15,455
   Unamortized rent abatement                                278,805            371,740           650,545
Total intragovernmental                                      279,731            901,441         1,181,172
Public:
  Accrued payroll and employee benefits                               -      2,032,876          2,032,876
  Accrued annual leave                                                -      2,985,779          2,985,779
  Actuarial liability for workers’
     compensation                                               47,227               -            47,227
Total public                                                    47,227       5,018,655         5,065,882
Total other liabilities                                       $326,958      $5,920,096        $6,247,054
                                                                            2011
                                                        Non-Current         Current               Total
Intragovernmental:
   Due to Treasury General Fund                           $          -      $    25,000       $    25,000
   Accrued employee benefits                                         -          477,104           477,104
   Accrued workers’ compensation                                14,529              516            15,045
   Unamortized rent abatement                                  650,545          371,740         1,022,285
Total intragovernmental                                        665,074          874,360         1,539,434
Public:
  Accrued payroll and employee benefits                               -      2,086,385          2,086,385
  Accrued annual leave                                                -      2,966,749          2,966,749
  Actuarial liability for workers’
     compensation                                               53,963               -            53,963
Total public                                                    53,963       5,053,134         5,107,097
Total other liabilities                                       $719,037      $5,927,494        $6,646,531

Amounts due to other agencies include payroll collections received for employees of those agencies.




                                                   23
NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is
not committed to continue to pay rent to GSA beyond the period occupied providing proper
advance notice to GSA is made. However, it is expected that FinCEN will continue to occupy
and lease office space from GSA in future years. The lease expense incurred related to GSA
leases during fiscal years 2012 and 2011 was $4,514,262 and $4,793,612, respectively.

As of September 30, 2012 future lease payments due under non-cancelable operating leases are
as follows:

                     Year                                           Amount
                     2013                                           $24,361
                     2014                                            24,361
                     2015                                            24,361
                     2016                                            24,361
                     2017                                            24,361
                     Thereafter                                     257,820
                     Total future payments                         $379,625



NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. In the opinion
of management and legal counsel, no legal actions against FinCEN were both probable and
estimable as of September 30, 2012 and 2011, and no legal liabilities have been accrued in the
accompanying financial statements.

There were no pending or threatened litigation or unasserted claims that required disclosure as of
September 30, 2012 and 2011.




                                               24
 NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

 Intragovernmental costs and exchange revenue for the years ended September 30, 2012 and
 2011 consisted of the following:
                                                                              Restated
                                                               2012             2011
 PROGRAM COSTS
 Financial systems are more transparent and resistant to
 financial crime
   Intragovernmental costs                                          $15,104,943         $17,763,944
   Public costs                                                      15,365,787          14,534,053
      Total program costs                                            30,470,730          32,297,997
   Intragovernmental earned revenue                                           -            (70,242)
 Net program cost                                                    30,470,730          32,227,755

 Analysis and information sharing contribute to the
 detection and deterrence of financial crime
   Intragovernmental costs                                           13,919,613          16,792,158
   Public costs                                                      14,159,989          13,738,961
      Total program costs                                            28,079,602          30,531,119
   Intragovernmental earned revenue                                   (644,565)           (827,731)
 Net program cost                                                    27,435,037          29,703,388

 Financial reporting and data are useful, comprehensive,
 and secure

   Intragovernmental costs                                           29,284,578          33,313,621
   Public costs                                                      29,790,289          27,256,444
      Total program costs                                            59,074,867          60,570,065
   Intragovernmental earned revenue                                           -              (4,035)
 Net program cost                                                    59,074,867          60,566,030


 Net cost of operations                                            $116,980,634        $122,497,173

The criteria used for this classification are that the intragovernmental costs relate to the source of
goods and services purchased by the reporting entity, and not to the classification of related
revenue. For example, “exchange revenue with the public” is when the buyer of the goods or
services is a non-Federal entity. While with “intragovernmental costs,” the buyer and seller are
both Federal entities. If a Federal entity purchases goods or services from another Federal entity
and sells them to the public, the exchange revenue would be classified as “with the public,” but




                                                 25
the related costs would be classified as “intragovernmental.” The purpose of this classification is
to enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmenal revenue.

In fiscal year 2012, an accounting policy was implemented that requires FinCEN to capture
certain revenue activity with the Treasury Forfeiture Fund as Transfers in without reimbursement
on the Statements of Changes in Net Position. This activity was previously recorded as earned
revenue on the Statements of Net Cost. For comparative purposes the policy was applied to
fiscal years 2012 and 2011. The effect of the change on the fiscal year 2011 financial statements
was to increase transfers in without re-imbursement on the Statements of Changes in Net
Position and reduce earned revenue on the Statements of Net Cost by $2,095,747.


NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2012 and 2011 consisted of the following:
                                                    2012                        2011
Direct Obligations
   Category B                                        $110,409,578                   $105,604,852
Reimbursable Obligations
   Category B                                           7,951,080                     12,865,338
Total                                                $118,360,658                   $118,470,190

Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects,
or objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2012 and 2011
consisted of the following:

                                                       2012                        2011
Recoveries of prior year obligations                  $1,270,194                  $1,420,440
Cancellations of expired accounts                      (792,650)                   (543,243)
Enacted Rescissions                                            -                   (222,020)
Total                                                   $477,544                    $655,177




                                                26
Differences Between the Statement of Budgetary Resources and the Budget of the United
States
The fiscal year 2014 Budget of the United States Government (also known as the President’s
Budget) with actual numbers for fiscal year 2012, was not published at the time these financial
statements were issued. The President’s Budget is expected to be published in February 2013.
There were no material differences between the fiscal year 2011 Statement of Budgetary
Resources and the actual fiscal year 2011 balances included in the fiscal year 2013 President’s
Budget.

Undelivered Orders at the End of the Period

Undelivered orders as of September 30, 2012 and 2011 were $20,176,815 and $15,737,507,
respectively.


NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2012 and 2011 cash collections and distributions to Treasury were $55,180 and $286,774
respectively. The custodial accrual adjustment decrease of $20,000 and increase of $25,000 at
September 30, 2012 and 2011, respectively, reflects the change in accounts receivable FinCEN
has which are offset by the increase in custodial liability.




                                              27
NOTE 14. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
            TO BUDGET
A reconciliation of net cost of operations to budget for the years ended
   September 30, 2012 and 2011 follows:
                                                                 For the Years Ended September 30
                                                                      2012                  2011
Resources used to finance activities:
Budgetary resources obligated:
    Obligations incurred                                           $118,360,658       $118,470,190
    Less: Spending authority from offsetting collections and
       Recoveries                                                    (9,039,022)       (14,175,635)
    Obligations net of offsetting collections and recoveries        109,321,636         104,294,555
    Less: Offsetting receipts                                                  -              (774)
    Net obligations                                                 109,321,636         104,293,781
Other resources:
    Transfers in without reimbursement                                5,118,220            15,728,878
    Imputed financing from costs absorbed by others                  20,921,311            23,009,464
    Net other resources used to finance activities                   26,039,531            38,738,342


Total resources used to finance activities                          135,361,167        143,032,123

Resources used to finance items not part of the net cost of
                           operations:
Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided                        2,433,265            (1,480,290)
Resources that fund expenses recognized in prior periods                375,570                442,769
Budgetary offsetting collections and receipts that do not
affect net cost of operations:
        Other                                                         5,118,220            15,728,104
Resources that finance the acquisition of assets                     23,622,586            25,993,059
Other resources or adjustments to net obligated resources that
     do not affect net cost of operations                           (5,118,200)        (15,728,878)
Total resources used to finance items not part of the net            26,431,421          24,954,764
cost of operations

Total resources used to finance the net cost of operations          108,929,746        118,077,359

                                                                             (Continued)




                                                 28
                                                                  For the Years Ended September 30
                                                                     2012                2011
Components of the net cost of operations that will not
 require or generate resources in the current period:
Components requiring or generating resources in future periods:
   Increase in annual leave liability                                  $19,030          $          -
   Other                                                                 6,410                43,050
Total components of net cost of operations that will require
or generate resources in future periods                                 25,440                 43,050
Components not requiring or generating resources:
   Depreciation and amortization                                     8,025,448              4,376,211
   Revaluation of assets or liabilities                                      -                   8,764
   Other                                                                     -                 (8,211)
Total components of net cost of operations that will not
require or generate resources                                        8,025,448              4,376,764

Total components of net cost of operations that will not
require or generate resources in the current period                  8,050,888              4,419,814


Net cost of operations                                            $116,980,634       $122,497,173




                                                 29
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network
                            Required Supplementary Information
                      For the Years Ended September 30, 2012 and 2011

STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2012 and 2011
consisted of the following:
                                                                            2012
                                                         Appropriated      Trust
                                                            Funds          Funds           Total

BUDGETARY RESOURCES
Unobligated balance brought forward, October                 $33,922,438    $65,164       $33,987,602
  Recoveries of prior year unpaid obligations (Note 12)        1,270,194          -         1,270,194
Other changes in unobligated balance (Note 12)                 (792,650)          -         (792,650)
Unobligated balance from prior year budget authority, net     34,399,982     65,164        34,465,146
Appropriations (discretionary and mandatory)                 110,788,000          -       110,788,000
Spending Authority from offsetting collections                 7,768,828          -         7,768,828
Total Budgetary Resources                                   $152,956,810    $65,164       153,021,974


STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12)                              $118,360,658    $      -     $118,360,658
Un-obligated Balance, end of year
 Apportioned                                                  32,133,048     65,164        32,198,212
 Unapportioned                                                 2,463,104          -         2,463,104
Unobligated balance brought forward, end of year             $34,596,152    $65,164      $ 34,661,316
Total Budgetary Resources                                   $152,956,810    $65,164      $153,021,974




                                                                           (Continued)




                                                    30
                                                                                    2012
                                                               Appropriated     Trust
                                                                 Funds          Funds              Total
CHANGE IN OBLIGATED BALANCE

Unpaid obligations, brought forward, October 1 (gross)          $27,099,782     $          -    $27,099,782
Uncollected customer payments from Federal sources, brought
forward, October 1                                               (8,632,882)               -     (8,632,882)

Obligated balance start of year (net)                              18,466,900              -       18,466,900
Obligations incurred                                             118,360,658               -     118,360,658
Outlays (gross)                                                (109,100,758)               -   (109,100,758)
Change in uncollected customer payments from Federal sources        1,850,521              -        1,850,521
Recoveries of prior year unpaid obligations                       (1,270,194)              -      (1,270,194)
 Unpaid Obligations, end of year (gross)                           35,089,489              -       35,089,489
 Uncollected customer payments from Federal sources, end of
 Year                                                            (6,782,362)               -     (6,782,362)
Obligated balance, end of year (net)                            $28,307,127     $          -    $28,307,127

BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)          $118,556,828                -   $118,556,828
Actual offsetting collections (discretionary and mandatory)      (9,619,349)               -     (9,619,349)
Change in uncollected customer payments from Federal Sources
 (discretionary and mandatory)                                     1,850,521               -       1,850,521
Budget Authority, net (discretionary and mandatory)            $110,788,000     $          -   $110,788,000
Outlay, gross (discretionary and mandatory)                    $109,100,758                -   $109,100,758
Actual offsetting collections (discretionary and mandatory)      (9,619,349)               -     (9,619,349)
Outlays, net (discretionary and mandatory)                        99,481,409               -      99,481,409
Agency Outlays, net (discretionary and mandatory)               $99,481,409     $          -    $99,481,409




                                                         31
                            United States Department of the Treasury
                             Financial Crimes Enforcement Network
                              Required Supplementary Information
                        For the Years Ended September 30, 2012 and 2011
STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2012 and 2011
consisted of the following:
                                                                           2011
                                                        Appropriated       Trust
                                                           Funds           Funds          Total
BUDGETARY RESOURCES
Unobligated balance brought forward, October                 $27,972,256      $65,164     $28,037,420
Recoveries of prior year unpaid obligations (Note 12)          1,420,440            -       1,420,440
Other changes in unobligated balance (Note 12)                 (543,243)            -       (543,243)
Unobligated balance from prior year budget authority, net     28,849,453       65,164      28,914,617
Appropriations (discretionary and mandatory)                 110,787,980            -     110,787,980
Spending Authority from offsetting collections                12,755,195            -      12,755,195
Total Budgetary Resources                                   $152,392,628      $65,164    $152,457,792

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12)                              $118,470,190      $     -    $118,470,190
Un-obligated Balance, end of year
 Apportioned                                                  31,491,262       65,164      31,556,426
 Unapportioned                                                 2,431,176            -       2,431,176
Unobligated balance brought forward, end of year            $ 33,922,438      $65,164      33,987,602
Total Budgetary Resources                                   $152,392,628      $65,164    $152,457,792




                                                                           (Continued)




                                                      32
                                                                               2011
                                                               Appropriated    Trust
                                                                 Funds         Funds         Total


CHANGE IN OBLIGATED BALANCE
Unpaid obligations, brought forward, October 1 (gross)          $29,542,142    $       -    $29,542,142
Uncollected customer payments from Federal sources, brought
forward, October 1                                              (10,361,919)           -    (10,361,919)
Obligated balance start of year (net)                             19,180,223           -      19,180,223
Obligations incurred                                             118,470,190           -     118,470,190
Outlays (gross)                                                (119,492,110)           -   (119,492,110)

Change in uncollected customer payments from Federal Sources       1,729,036           -       1,729,036
Recoveries of prior year unpaid obligations                      (1,420,440)           -     (1,420,440)
Obligated balance, end of year
 Unpaid Obligations, end of year (gross)                         27,099,782            -     27,099,782
 Uncollected customer payments from Federal sources, end of
 year                                                            (8,632,882)           -     (8,632,882)
Obligated balance, end of year (net)                            $18,466,900    $       -    $18,466,900


BUDGET AUTHORITY AND OUTLAYS, NET
Budget authority, gross (discretionary and mandatory)          $123,543,175            -   $123,543,175
Actual offsetting collections (discretionary and mandatory)     (14,484,231)           -    (14,484,231)
Change in uncollected customer payments from Federal Sources
(discretionary and mandatory)                                      1,729,036           -       1,729,036
Budget Authority, net (discretionary and mandatory)            $110,787,980    $       -   $110,787,980
Outlay, gross (discretionary and mandatory)                    $119,492,110            -   $119,492,110
Actual offsetting collections (discretionary and mandatory)     (14,484,231)           -    (14,484,231)
Outlays, net (discretionary and mandatory)                       105,007,879           -     105,007,879
Distributed offsetting receipts                                        (774)           -           (774)
Agency Outlays, net (discretionary and mandatory)              $105,007,105    $       -   $105,007,105




                                                      33
                 Certified Public Accountants
                 & Consultants


                                    Independent Auditor's Report on Financial Statements
www.gkacpa.com

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:

                          We have audited the accompanying balance sheets of the U.S. Department of
                          the Treasury - Financial Crimes Enforcement Network (FinCEN) as of
                          September 30, 2012 and 2011, and the related statements of net cost, changes
                          in net position, budgetary resources and custodial activity, hereinafter referred
                          to as “financial statements” for the years then ended. These financial
                          statements are the responsibility of FinCEN’s management. Our responsibility
                          is to express an opinion on these financial statements based on our audits.

                          We conducted our audits in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended. Those standards and OMB Bulletin
                          07-04 require that we plan and perform the audits to obtain reasonable
                          assurance about whether the financial statements are free of material
                          misstatement. An audit includes examining, on a test basis, evidence
                          supporting the amounts and disclosures in the financial statements. An audit
                          also includes assessing the accounting principles used and significant estimates
                          made by management, as well as evaluating the overall financial statement
                          presentation. We believe that our audits provide a reasonable basis for our
                          opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of FinCEN as of September 30, 2012,
                          and 2011, and its net costs, changes in net position, budgetary resources and
                          custodial activity for the years then ended in conformity with accounting
                          principles generally accepted in the United States of America.

                          As discussed in Note 11 to the financial statements, in fiscal year 2012, an
                          accounting policy was implemented that requires FinCEN to capture certain
                          revenue activity with the Treasury Forfeiture Fund as Transfers in without
                          reimbursement on the Statements of Changes in Net Position. This activity
  1015 18th Street, NW    was previously recorded as earned revenue on the Statements of Net Cost. For
        Suite 200         comparative purposes the policy was applied to fiscal years 2012 and 2011.
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
U.S. generally accepted accounting principles require that the information in the Management
Discussion and Analysis and Required Supplemental Information be presented to supplement
the basic financial statements referred to in the first paragraph of this report. Such
information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the required supplementary
information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to
our inquiries, the basic financial statements, and other knowledge we obtained during our
audits of the basic financial statements. We do not express an opinion or provide any
assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.

In accordance with Government Auditing Standards, we have also issued a report dated
February 8, 2013, on our consideration of FinCEN's internal control over financial reporting
and a report dated February 8, 2013, on our tests of its compliance with laws, regulations, and
contracts. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audits.




February 8, 2013




                                              35
                 Certified Public Accountants
                 & Consultants


                              Independent Auditor's Report on Internal Control over Financial
www.gkacpa.com                                         Reporting

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:

                          We have audited the balance sheet and the related statements of net cost,
                          changes in net position, budgetary resources and custodial activity, hereinafter
                          referred to as “financial statements” of the U.S. Department of the Treasury -
                          Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2012, and have issued our report thereon dated February 8,
                          2013. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                          Financial Statements, as amended.

                          In planning and performing our audit, we considered FinCEN’s internal control
                          over financial reporting by obtaining an understanding of the design
                          effectiveness of FinCEN’s internal control, determined whether these internal
                          controls had been placed in operation, assessed control risk, and performed
                          tests of controls as a basis for designing our auditing procedures for the
                          purpose of expressing our opinion on the financial statements. We limited our
                          internal control testing to those controls necessary to achieve the objectives
                          described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                          We did not test all internal controls relevant to operating objectives as broadly
                          defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                          those controls relevant to ensuring efficient operations. The objective of our
                          audit was not to provide an opinion on the effectiveness of FinCEN’s internal
                          control over financial reporting. Consequently, we do not provide an opinion
                          on the effectiveness of FinCEN’s internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might
                          be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                          in internal control exists when the design or operation of a control does not
                          allow management or employees, in the normal course of performing their
  1015 18th Street, NW    assigned functions, to prevent or detect and correct misstatements on a timely
        Suite 200         basis. A significant deficiency is a deficiency or a combination of deficiencies,
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that
a material misstatement of the entity’s financial statements will not be prevented, or detected
and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and the U.S. Congress, and is not intended to be, and should not be used by
anyone other than these specified parties. However, this report is a matter of public record and
its distribution is not limited.




February 8, 2013




                                               37
                 Certified Public Accountants
                 & Consultants


                                      Independent Auditor's Report on Compliance with
www.gkacpa.com                                     Laws and Regulations

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:


                          We have audited the balance sheet and the related statements of net cost,
                          changes in net position, budgetary resources and custodial activity, hereinafter
                          referred to as “financial statements” of the U.S. Department of the Treasury -
                          Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2012, and have issued our report thereon dated February 8,
                          2013. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and, the applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended.

                          The management of FinCEN is responsible for complying with laws and
                          regulations applicable to FinCEN. As part of obtaining reasonable assurance
                          about whether FinCEN’s financial statements are free of material
                          misstatement, we performed tests of its compliance with certain provisions of
                          laws and regulations and contracts, noncompliance with which could have a
                          direct and material effect on the determination of financial statement amounts,
                          and certain provisions of other laws and regulations specified in OMB Bulletin
                          No. 07-04, including certain requirements referred to in Section 803(a) of the
                          Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to the provisions described in the preceding
                          sentence, and we did not test compliance with all laws, regulations and
                          contracts applicable to FinCEN. However, our objective was not to provide an
                          opinion on overall compliance with laws, regulations and contracts.
                          Accordingly, we do not express such an opinion.

                          The results of our tests of compliance with laws, regulations and contracts
                          described in the preceding paragraph, exclusive of FFMIA, disclosed no
                          instances of noncompliance or other matters that are required to be reported
                          under Government Auditing Standards and OMB Bulletin No. 07-04.

  1015 18th Street, NW    Under FFMIA, we are required to report whether FinCEN’s financial
        Suite 200         management systems substantially comply with (1) federal financial
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
management systems requirements, (2) applicable federal accounting standards, and (3) the
United States Government Standard General Ledger at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and U.S. Congress and is not intended to be, and should not be used by anyone
other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




February 8, 2013




                                             39
